TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                        RECOVERY ACT


                     Overall the Making Work Pay Credit
                    Was Implemented As Intended by the
                  Congress, but Resulted in Many Taxpayers
                      Owing Taxes With Their Returns



                                        November 1, 2010

                              Reference Number: 2011-41-002




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

  Redaction Legend:
  1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                         HIGHLIGHTS


OVERALL THE MAKING WORK PAY                          WHAT TIGTA FOUND
CREDIT WAS IMPLEMENTED AS
                                                     The IRS initiated significant outreach to inform
INTENDED BY THE CONGRESS, BUT                        taxpayers about the Making Work Pay Credit
RESULTED IN MANY TAXPAYERS                           and its potential effects. Despite these actions,
OWING TAXES WITH THEIR RETURNS                       TIGTA estimates that approximately 13.4 million
                                                     taxpayers were or will be negatively affected by
Highlights                                           the Making Work Pay Credit in Tax Years 2009
                                                     and 2010. The changes to the withholding
                                                     tables did not take the following situations into
Final Report issued on November 1, 2010
                                                     consideration: 1) dependents who receive
                                                     wages, 2) single taxpayers with more than one
Highlights of Reference Number: 2011-41-002
                                                     job, 3) joint filers when one or both spouses
to the Internal Revenue Service Commissioners
                                                     have more than one job or both spouses work,
for the Small Business/Self-Employed Division
                                                     4) individuals who file a return with an individual
and the Wage and Investment Division.
                                                     taxpayer identification number, 5) taxpayers who
IMPACT ON TAXPAYERS                                  receive pension payments, and 6) Social
                                                     Security recipients who receive wages.
The Making Work Pay Credit is being advanced
to taxpayers through their wages by a decrease       A survey of the taxpayers who appeared to have
in Federal income tax withholding. This created      been negatively affected by the reduced
the vulnerability that some taxpayers had or will    withholding associated with the Credit indicated
have their taxes underwithheld at the end of Tax     that most were not aware of the Credit or its
Years 2009 or 2010. If taxpayers were                effect on their taxes. Furthermore, TIGTA
advanced more of the Making Work Pay Credit          estimates that approximately 108,000 taxpayers
than they were entitled to, they may have            may have been assessed the Estimated Tax
ultimately owed taxes when they filed their Tax      Penalty as a result of the Making Work Pay
Year 2009 tax returns and may owe taxes when         Credit and that an additional 1.02 million
they file their Tax Year 2010 tax returns. These     taxpayers may have had their Estimated Tax
taxpayers may have been or could be assessed         Penalty amount increased.
the Estimated Tax Penalty.                           WHAT TIGTA RECOMMENDED
WHY TIGTA DID THE AUDIT                              TIGTA recommended that the Commissioner,
The Making Work Pay Credit, a provision of the       Wage and Investment Division, should: 1) in the
American Recovery and Reinvestment Act of            case of future credits that are implemented by
2009, applies to most taxpayers with earned          changes in the withholding tables, consider
income. The Credit is effective for both Tax         including simplified withholding adjustment
Years 2009 and 2010. The Making Work Pay             instructions on the IRS Web site for specific
Credit was implemented using new income tax          scenarios that could result in underwithholding
withholding tables issued by the Internal            and 2) identify those taxpayers that owed any
Revenue Service (IRS). The tables had some           Estimated Tax Penalty as a result of the Making
inherent limitations which could negatively affect   Work Pay Credit and notify them of the their
a significant number of taxpayers. The overall       right to have the portion of the Penalty related to
objectives of this review were to assess IRS         the Credit abated.
efforts to implement the Making Work Pay             IRS management agreed with the first
Credit, evaluate its impact on taxpayers, and        recommendation and partially agreed with the
determine whether taxpayers who were                 second. They plan to continue outreach efforts,
negatively affected were aware of how to avoid       but declined to contact taxpayers who owed any
owing taxes and penalties.                           Penalty based on the Making Work Pay Credit.
                                                     TIGTA is concerned that the IRS’s corrective
                                                     actions are not adequate.
                                                 DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                November 1, 2010


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Overall the Making Work Pay Credit Was
                                 Implemented As Intended by the Congress, but Resulted in Many
                                 Taxpayers Owing Taxes With Their Returns (Audit # 201040139)

 This report presents the results of our review to assess Internal Revenue Service (IRS) efforts to
 implement the Making Work Pay Credit and evaluate its impact on taxpayers. This audit was
 included in our Fiscal Year 2010 Annual Audit Plan and addresses the major management
 challenge of Implementing Tax Law Changes.
 The American Recovery and Reinvestment Act of 2009 (Recovery Act)1 provides separate
 funding to the Treasury Inspector General for Tax Administration through September 30, 2013,
 to be used in oversight activities of IRS programs. This audit was conducted using Recovery Act
 funds.
 Management’s complete response to the draft report is included as Appendix VIII
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and
 Accounts Services) at (202) 622-5913.




 1
     Pub. L. No. 111-5, 123 Stat. 115. (2009)
                                  Overall the Making Work Pay Credit
                             Was Implemented As Intended by the Congress,
                                but Resulted in Many Taxpayers Owing
                                      Taxes With Their Returns




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 6
          Implementation of the Making Work Pay Credit Caused
          Many Taxpayers to Owe More Income Tax for
          Tax Year 2009............................................................................................... Page 6
          Despite Substantial Efforts to Inform Taxpayers About the
          Making Work Pay Credit, Taxpayers Negatively Affected
          by the Reduced Withholding Are Still Unaware of the
          Problem and the Solution .............................................................................. Page 9
                    Recommendation 1:........................................................ Page 10

          Some Taxpayers Were Assessed the Estimated Tax Penalty
          As a Result of the Making Work Pay Credit ................................................ Page 10
                    Recommendation 2:........................................................ Page 12

Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 14
          Appendix II – Major Contributors to This Report ........................................ Page 23
          Appendix III – Report Distribution List ....................................................... Page 24
          Appendix IV – Outcome Measures............................................................... Page 25
          Appendix V – Sampling Process .................................................................. Page 28
          Appendix VI – Taxpayer Questionnaire ....................................................... Page 36
          Appendix VII – Assumptions Made in Reviewing Cases ............................ Page 39
          Appendix VIII – Management’s Response to the Draft Report ................... Page 41
             Overall the Making Work Pay Credit
        Was Implemented As Intended by the Congress,
           but Resulted in Many Taxpayers Owing
                 Taxes With Their Returns




                     Abbreviations

IMF     Individual Master File
IRS     Internal Revenue Service
ITIN    Individual Taxpayer Identification Number
TIGTA   Treasury Inspector General for Tax Administration
                                Overall the Making Work Pay Credit
                           Was Implemented As Intended by the Congress,
                              but Resulted in Many Taxpayers Owing
                                    Taxes With Their Returns




                                                Background

The American Recovery and Reinvestment Act of 2009 (Recovery Act)1 contained many
economic stimulus provisions, one of which was the Making Work Pay Credit found in
Section 1001 of the Recovery Act. This provision is effective for Tax Years 2009 and 2010.
The Making Work Pay Credit is the main focus of this report; however, we reference two other
provisions of the Recovery Act that affect the Making Work Pay Credit, namely Section 2201
“Economic Recovery Payment to Recipients of Social Security, Supplemental Security Income,
Railroad Retirement Benefits, and Veterans Disability Compensation or Pension Benefits” and
Section 2202 “Special Credit for Certain Government Retirees.”
The Making Work Pay Credit is a refundable2 tax credit allowed against the lesser of 6.2 percent
of earned income or $400 ($800 in the case of a joint tax
return). The Credit is reduced as a taxpayer’s modified
Adjusted Gross Income exceeds $75,000 ($150,000 for               In general, single filers are
joint filers) and is completely phased out as the               eligible for a Making Work Pay
                                                                   Credit of up to $400, while
taxpayer’s modified Adjusted Gross Income reaches               married filers are eligible for up
$95,000 ($190,000 for joint filers).3 In order to qualify           to $800 per household.
for the Making Work Pay Credit, individuals must have
both earned income and a valid Social Security number.
In the case of a joint return, only one valid Social Security number is required. Earned income is
defined in Section 32 of the Internal Revenue Code as “wages, salaries, tips, and other
employment compensation … plus the amount of the taxpayer’s net earnings from
self-employment … no amount received as a pension or annuity shall be taken into account.”
Implementing the Making Work Pay Credit has been a challenge for the Internal Revenue
Service (IRS) because of the requirement for it to be advanced to taxpayers throughout the year
and later claimed on their individual income tax returns. The Credit is advanced to taxpayers by
their employers through withholding reductions that result in an increase in take home pay,
which is intended to help increase spending and stimulate the economy.


1
  Pub. L. No. 111-5, 123 Stat. 115.
2
  A refundable credit is a direct, dollar-for-dollar reduction of tax liability for which a tax refund is issued even if the
taxpayer’s liability drops below zero.
3
  The phase-out limits in the law are different than those limits contained in the new withholding tables (this was
intentionally done to minimize the negative impact on two-earner families). The new tables for Tax Year 2009
began phasing out at about $66,530 ($118,130 for joint filers) and phase out completely at about $84,300 ($144,800
for joint filers). The phase-out amounts for Tax Year 2010 changed to about $67,701 ($94,051 for joint filers) and
phase out completely at about $87,700 ($124,050 for joint filers). In determining the number of taxpayers
negatively affected, we used the phase-out amounts found in the new tables.
                                                                                                                   Page 1
                             Overall the Making Work Pay Credit
                        Was Implemented As Intended by the Congress,
                           but Resulted in Many Taxpayers Owing
                                 Taxes With Their Returns


However, because of the difficulty inherent in modifying withholding tables to account for all
the different taxpayers’ situations which can affect withholding as well as eligibility for the
Making Work Pay Credit, advancing the Credit to taxpayers through reduced income tax
withholding creates the vulnerability that some taxpayers may have their taxes underwithheld
throughout the year. Adding to the difficulty of administering the Making Work Pay Credit are
Sections 2201 and 2202 of the Recovery Act, which address other economic recovery benefits to
be received by certain taxpayers. These benefits affect the amount of Making Work Pay Credit
these taxpayers are eligible to receive. The Credit will be reduced by any payment received as a
result of Section 2201 and by any credit allowed by Section 2202 of the Recovery Act. If
taxpayers are advanced more of the Making Work Pay Credit than they are entitled to, they may
ultimately owe taxes or owe more when they file their tax returns.
On November 4, 2009, we issued an Interim Audit Report4 that presented the results from the
first phase of this audit. In that report, we estimated that more than 15.4 million taxpayers could
unexpectedly owe taxes or owe more taxes than expected for Tax Year 2009 as a result of the
Making Work Pay Credit because withholding tables adjusted for the Credit did not
appropriately account for taxpayer situations such as:
    •   Dependents who received wages.
    •   Single taxpayers with more than one job.
    •   Joint filers in households where both spouses work or where one or both spouses have
        more than one job.
    •   Taxpayers filing with an individual taxpayer identification number (most often
        nonresident aliens).
    •   Taxpayers who receive pension payments.
    •   Taxpayers who are employed and receive Social Security or similar benefits referred to in
        Section 2201 of the Recovery Act.
In addition, we estimated that more than 1.2 million of these taxpayers may be assessed the
Estimated Tax Penalty or an increased Estimated Tax Penalty as a direct result of the Making
Work Pay Credit.
Prior to the issuance of our report, the IRS had initiated significant outreach to inform taxpayers
about the Making Work Pay Credit, including:
    •   In the March 2009 revision of the New Wage Withholding and Advance Earned Income
        Credit Payment Tables (Publication 15-T), the IRS instructed employers to make


4
 Millions of Taxpayers May Be Negatively Affected by the Reduced Withholding Associated With the Making Work
Pay Credit (Reference No. 2010-41-002, dated November 4, 2009).
                                                                                                     Page 2
                              Overall the Making Work Pay Credit
                         Was Implemented As Intended by the Congress,
                            but Resulted in Many Taxpayers Owing
                                  Taxes With Their Returns


        available to employees a notice that would make them aware of how the Making Work
        Pay Credit would affect their withholding.5
    •   Establishment of the 2009 American Recovery and Reinvestment Act Outreach Strategy
        Team. The mission of the Team was to “develop an overall outreach strategy for the
        provisions of the Recovery Act affecting individual taxpayers and associated business
        stakeholders.” The outreach strategy specific to the Making Work Pay Credit included
        identification of the targeted audiences, explanation of the issues, key messages, and
        outreach activities. The Team was also developing print, video, and audio outreach
        products.
    •   On June 25, 2009, the IRS issued a special edition tax tip through its Newswire service
        that focused on the Making Work Pay Credit. The notice informed taxpayers of the
        different scenarios for which taxpayers may be negatively affected by the Credit. The
        Newswire article also included links to both an audio and video presentation that stressed
        the importance of taxpayers checking their Employee’s Withholding Allowance
        Certificate (Form W-4) to avoid having taxes underwithheld. The video was posted on
        youtube.com6 and the audio was posted on IRS.gov (the IRS public Web site).
Subsequent to these efforts, we contacted 64 taxpayers (from the taxpayer segments referred to
above) to determine if they were aware of the potentially negative effects the Making Work Pay
Credit might have on their income tax filing and whether they knew how to avoid these potential
negative effects. The vast majority of these taxpayers were unaware of the effects or the ways
they might avoid the effects.
As a result, the IRS agreed to explore every avenue for communicating to the public about the
Making Work Pay Credit. Additional plans for communication included a radio public service
announcement on the Making Work Pay Credit, distributing an Internet banner ad to a wide
range of Web sites that serve the affected Making Work Pay taxpayer groups, and providing
English and Spanish satellite media tours to television stations nationwide.




5
  The notice provided important information to employees regarding the Making Work Pay Credit. However, it did
not provide employees with essential information necessary to make an informed decision. The notice did not
accurately explain to employees why they would want to adjust their withholding. For example, it implies that
married individuals should only adjust their withholding if their combined income places them in a higher tax
bracket; this scenario is irrelevant to the Making Work Pay Credit. Had it said that withholding should be reviewed
if the combined income of the married individuals would place them above the phase-out amount, then it would
have been accurate. Additionally, it should have explained that if taxpayers meet certain criteria, they may have to
pay back all or a portion of the Credit advanced through the reduced withholding when they file their Tax Year 2009
or Tax Year 2010 return.
6
  A video sharing Web site.
                                                                                                            Page 3
                              Overall the Making Work Pay Credit
                         Was Implemented As Intended by the Congress,
                            but Resulted in Many Taxpayers Owing
                                  Taxes With Their Returns


The IRS also agreed that to the extent an Estimated Tax Penalty was caused by the application of
the change in the withholding tables, waiver of the penalties would be appropriate. Therefore, it
made plans to alert taxpayers to this relief.
The IRS took steps to mitigate the negative effect of the Making Work Pay Credit on nonresident
aliens for Tax Year 2010.7 However, the IRS did not agree with our recommendation to allow
pension administrators to use the withholding tables which were in place prior to the enactment
of the Recovery Act, which would have significantly reduced the burden the IRS placed on
taxpayers receiving a pension and would have been consistent with the process used by the
Federal Government’s own Office of Personnel Management. The IRS issued Additional
Withholding for Pensions for 2009 (Notice 1036-P). Rather than allowing pension
administrators to simply use the withholding tables in place prior to the Making Work Pay
Credit, this notice contained additional withholding tables that were applicable only to pensions
and were to be used in conjunction with the other Making Work Pay Credit withholding tables.
These new pension withholding tables were designed to offset the Making Work Pay Credit.
The IRS made the use of the new pension tables optional. While this action may have reduced
the negative effects for some pensioners, it did not resolve this issue.
Since the additional tables are to be used in conjunction with the previously issued tables, it
imposes a significant burden on pension administrators. One State retirement agency that we
contacted stated they simply could not program the additional table into their computer system.
This State agency contacted IRS personnel seeking to resolve the multiple tables issue and was
told it could use whatever table would withhold more tax. This instruction is inconsistent with
the Department of the Treasury guidance, since the tables that would withhold more tax are those
that were in effect prior to the implementation of the Recovery Act. Because of this burden, and
because the use of the tables in Notice 1036-P was optional, other pension administrators may
choose not to use them. We contacted a major United States insurance company that services
pensions for other companies and found that they chose to not use the optional withholding
tables. This could cause taxes for many taxpayers with pensions administered by this company
to be underwithheld, requiring them to repay the Making Work Pay Credit erroneously advanced
to them.
The Department of the Treasury guidance for pension administrators was not followed by the
Federal Government. The Office of Personnel Management (the agency which administers
pensions for the Federal Government) told us that it did not use any of the new tables to calculate
withholding payments because the new tables apply to earned income, not pensions and

7
 For Tax Year 2010, a modified procedure went into effect for figuring the amount of income tax withholding for
nonresident alien employees working in the United States. An amount is to be added to employees’ wages prior to
calculating the withholding. The additional wage amount is only to be used for withholding purposes. Then,
employers are to use a separate set of withholding tables that apply only to nonresident aliens. The effect of the
additional amounts being added to the wages and the separate withholding tables will offset the standard deduction
and the Making Work Pay Credit, both of which are not allowed to nonresident aliens.
                                                                                                           Page 4
                              Overall the Making Work Pay Credit
                         Was Implemented As Intended by the Congress,
                            but Resulted in Many Taxpayers Owing
                                  Taxes With Their Returns


annuities. Instead, the Office of Personnel Management used the tables in place prior to the
Making Work Pay Credit.
During the second phase of this audit, we selected samples of nonrefund tax returns from those
taxpayer segments we had previously identified as at risk of being negatively affected by the
Making Work Pay Credit.8 We reviewed these samples to determine if the Making Work Pay
Credit caused the taxpayers to owe taxes or to owe more taxes with their tax returns. We
contacted those taxpayers to determine if they were aware of the Making Work Pay Credit’s
negative effects and if they knew what steps to take to avoid these effects. We also determined
whether taxpayers were assessed the Estimated Tax Penalty or an increased Estimated Tax
Penalty because of the Making Work Pay Credit and whether it appeared the taxpayers were
aware of the relief available from this Penalty. Our work was completed as of July 22, 2009.
Phase 2 of this review was performed at the IRS Campus9 in Ogden, Utah, and included analysis
of tax data located on the Treasury Inspector General for Tax Administration (TIGTA) Data
Center Warehouse,10 a review of taxpayer account data contained on the IRS Master File,11 and a
survey of taxpayers’ knowledge of the Making Work Pay Credit, as well as discussions and
analysis of information provided by the Department of the Treasury and the IRS’s Wage and
Investment Division. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives. Detailed
information on our audit objectives, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




8
  Although many taxpayers in our identified scenarios will have a reduced refund, we defined “negatively affected”
as those who will owe taxes or owe more taxes as a result of the Making Work Pay Credit.
9
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
10
   The Data Center Warehouse is a collection of IRS databases containing various types of taxpayer account
information that is maintained by the TIGTA for the purpose of analyzing data for ongoing audits.
11
   The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                           Page 5
                              Overall the Making Work Pay Credit
                         Was Implemented As Intended by the Congress,
                            but Resulted in Many Taxpayers Owing
                                  Taxes With Their Returns




                                     Results of Review

Implementation of the Making Work Pay Credit Caused Many
Taxpayers to Owe More Income Tax for Tax Year 2009
Based on an analysis of Tax Year 2007 tax return data, we estimated in our prior report that more
than 15.4 million taxpayers could be negatively affected by the Making Work Pay Credit. We
considered taxpayers negatively affected by the Credit if they were underwithheld at year-end
and owed additional tax because of the Credit. If taxpayers’ refunds were reduced, we did not
consider them to have been negatively affected. Approximately 93 million taxpayers received
refunds in 2010 as of April 23. Many of these taxpayers were advanced the Making Work Pay
Credit and may have benefited. However, based on updated information from samples of returns
filed for Tax Year 2009, we now estimate that approximately 13.4 million taxpayers were or will
be negatively affected by the Making Work Pay Credit in Tax Years 2009 and 2010.
The Recovery Act contained provisions in which the Education Credit, Earned Income Credit,
and Child Tax Credit increased. To ensure that our figures remained conservative, we excluded
from our estimates all Tax Year 2007 returns that claimed any one of these credits. The
estimates that we included in our prior report did not reflect the First-Time Homebuyer Credit
and Long Term Resident Credit, which were available for Tax Year 2009 and not available for
Tax Year 2007. Both of these credits significantly reduce tax liabilities and are refundable. We
recognize that these new credits would reduce our estimates of taxpayers that may have
ultimately owed additional tax with their Tax Year 2009 returns.
To determine if those taxpayers that we believed may be negatively affected by the Making
Work Pay Credit were in fact negatively affected, we used computer programs to identify
taxpayers that were underwithheld and owed tax on their Tax Year 2009 U.S. Individual Income
Tax Return (Form 1040).12 Through processing cycle 18 (May 8, 2010), the IRS had processed
6,366,979 tax returns on which the tax owed exceeded withholding, estimated tax payments, and
other credits. From these tax returns, we identified 4,848,933 returns filed by taxpayers with
those specific conditions that we had previously determined may cause the taxpayers to be
negatively affected by the Making Work Pay Credit. We selected a statistical sample (weighted
stratified sample) of returns from each cycle. A total of 465 accounts were selected and
reviewed to determine if the taxpayers were negatively affected by the Making Work Pay Credit.
(See Appendix V for a breakdown of our sample selection).


12
  The returns examined were processed during cycles 4 through 18, representing the time period from January 24
through May 8, 2010. A cycle is 1 week’s processing at a Campus or at Martinsburg or Tennessee Computing
Centers. There are 52 cycles in a year.
                                                                                                         Page 6
                               Overall the Making Work Pay Credit
                          Was Implemented As Intended by the Congress,
                             but Resulted in Many Taxpayers Owing
                                   Taxes With Their Returns


Our analysis of these 465 returns indicated that 405 taxpayers (87 percent) were negatively
affected by the reduced withholding associated with the Making Work Pay Credit. We further
found that in Tax Year 2009, 186 (46 percent) of these 405 taxpayers owed taxes with their
returns (rather than receiving a refund) for the first time in at least the prior 3 years. We made
certain assumptions in determining whether the taxpayers were negatively affected by the
reduced withholding associated with the Making Work Pay Credit. Those assumptions are
shown in Appendix VII.
In a recent publication, the IRS reported that the average dollar amount of refunds had increased
for Tax Year 2009.13 Nevertheless, fewer refunds were issued when compared with the same
time period from the prior year. There are a number of factors that indicate that the reduced
withholding associated with the Making Work Pay Credit could have caused taxpayers who were
normally accustomed to receiving refunds to owe additional tax when they filed their returns.
     •   A recently issued TIGTA report14 noted that the taxpayer demand for toll-free telephone
         assistance had been higher than planned as of March 6, 2010. According to the report,
         the IRS provided 960,161 services on the Individual Master File Balance Due
         application. This was a 34 percent increase from the services (716,248) provided the
         same period last year.
     •   A specific IRS SERP (Servicewide Electronic Research Program) Alert15 was issued to
         telephone assistors in response to a large number of telephone calls received from
         taxpayers inquiring about their reduced withholding. The Alert provided instruction on
         how to deal with taxpayers who have received refunds in the past and are now concerned
         that they will owe or will owe more.
     •   IRS statistics that compared the number and amount of refunds issued during Processing
         Year 2009 with Processing Year 2010 showed that despite the implementation of several
         major tax credits, the number of refunds being issued for Tax Year 2009 were down in
         comparison to the same point in time for Tax Year 2008. As of April 23, 2010, the
         number of refunds issued had declined 3.5 percent from the same point last year (IRS
         figures show the number of individual income tax returns declined 2.7 percent during that
         same period) even though the average amount of the refund had gone up 8.6 percent. In
         fact, the number of refunds that the IRS issues each year had been steadily increasing
         since 2005 (see Figures 1 and 2).




13
   IRS Newswire – March 23, 2010 – Issue Number: IR-2010-035.
14
   Interim Results of the 2010 Filing Season (Reference No. 2010-41-047, dated March 31, 2010).
15
   An IRS internal alert that notifies IRS employees of significant current issues and provides instruction to address
those issues.
                                                                                                               Page 7
                                            Overall the Making Work Pay Credit
                                       Was Implemented As Intended by the Congress,
                                          but Resulted in Many Taxpayers Owing
                                                Taxes With Their Returns


                                                Figure 1: Filing Season Statistics
                                                                             Filing Season
                                              2005          2006           2007           2008            2009             2010
 Number of Refunds                      84,741,000      85,151,000    88,168,000     93,183,000      96,673,000      93,289,000
 Average Refund                         $      2,144    $     2,237    $     2,303    $     2,371     $     2,663     $     2,892
 Change in
 Number of Refunds                                            0.5%           3.5%           5.7%            3.7%           -3.5%16
 Change in
 Average Refund                                               4.3%           3.0%           3.0%           12.3%             8.6%
 Date Effective                          4/22/2005       4/21/2006      4/20/2007     4/25/2008       4/24/2009       4/23/2010
Source: IRS’s filing season statistics at www.IRS.gov (Number of Refunds/Average Refund) and TIGTA’s
calculations (Change in Number of Refunds /Change in Average Refund).

                                       Figure 2: Change in the Number of Refunds

                          98,000,000
                          96,000,000
                          94,000,000
      Number of Refunds




                          92,000,000

                          90,000,000
                          88,000,000
                          86,000,000
                          84,000,000

                          82,000,000

                          80,000,000
                          78,000,000
                                       2005            2006           2007           2008           2009            2010

                                                                      Filing Season

Source: IRS’s filing season statistics available at www.IRS.gov.

In our opinion, the IRS implemented the Making Work Pay Credit in accordance with the intent
of the Congress and the Department of the Treasury. As such, there was little more it could do to
avoid the negative effects of the reduced withholding to most of the taxpayer segments we

16
     IRS figures show the number of individual income tax returns declined 2.7 percent during the same period.
                                                                                                                          Page 8
                           Overall the Making Work Pay Credit
                      Was Implemented As Intended by the Congress,
                         but Resulted in Many Taxpayers Owing
                               Taxes With Their Returns


identified as at risk. However, as mentioned, the IRS did take steps for Tax Year 2010 to
mitigate the negative effect for nonresident aliens who do not qualify for the Credit. Based on
the analysis presented in our prior report, we estimate that this action will lessen the burden on
approximately 87,000 nonresident aliens. In addition, we believe that if the IRS had taken
similar steps for pensioners, as recommended in our prior report, the negative effect of the Credit
could have been avoided for approximately 11 million pensioners over Tax Years 2009 and
2010.
Despite Substantial Efforts to Inform Taxpayers About the Making
Work Pay Credit, Taxpayers Negatively Affected by the Reduced
Withholding Are Still Unaware of the Problem and the Solution
In response to our prior report addressing the potential negative effects of the Making Work Pay
Credit, the IRS stated in October 2009 that it planned to explore every avenue for
communicating to the public about the Credit. The IRS planned to continue to tailor the
information to the specific media vehicle used. Additional plans for communication included
distributing a radio public service announcement on the Making Work Pay Credit, distributing an
Internet banner ad to a wide range of Web sites that serve the affected Making Work Pay
taxpayer groups, and providing English and Spanish satellite media tours to television stations
nationwide, one scheduled for September and October 2009. Additional actions include the
following:
   •   The IRS’s free email subscription service (IRS Tax Tips) addressed the Credit in
       January 2010 and July 2010.
   •   Public service announcements (Spanish and English) ran nationwide from September to
       December 2009.
   •   The Credit was included in all six 2010 Tax Forums.
   •   Additional information about the Credit was included in a number of IRS publications.
A survey of taxpayers negatively affected by the Making Work Pay Credit showed
that these taxpayers had little knowledge of the Credit or what to do to avoid
being negatively affected
To assess the effectiveness of the IRS’s efforts, we sent
501 questionnaires to taxpayers who filed their Tax Year
2009 individual income tax returns and who we determined              Eighty-eight percent of
                                                                  the taxpayers that responded
were negatively affected by the Making Work Pay Credit.             to TIGTA’s questionnaire
From the 501 questionnaires sent, we received                          were not aware of the
236 responses. Of those taxpayers responding to the                  Making Work Pay Credit
questionnaire, 208 (88 percent) responded that they had no         and its potential for causing
knowledge of the Making Work Pay Credit and its potential            insufficient withholding.

                                                                                            Page 9
                           Overall the Making Work Pay Credit
                      Was Implemented As Intended by the Congress,
                         but Resulted in Many Taxpayers Owing
                               Taxes With Their Returns


for causing insufficient withholding before receiving the questionnaire. Five percent of the
taxpayers responding were aware of the Credit and had adjusted their withholding. The other 7
percent were aware of the Credit, but had still not adjusted their withholding despite owing taxes
with their Tax Year 2009 return. Based on the results of this survey and our previous contacts
with taxpayers reported in our prior report, it appears that the IRS efforts to inform those
taxpayers who may be negatively affected by the Making Work Pay Credit have been largely
ineffective. As a result, millions of taxpayers may once again unexpectedly owe additional taxes
when they file their Tax Year 2010 individual income tax returns.

Recommendation
Recommendation 1: In the case of future credits that are implemented by changes in the
withholding tables, the Commissioner, Wage and Investment Division, should consider including
simplified withholding adjustment instructions on the IRS Web site for specific scenarios that
could result in underwithholding.
       Management’s Response: IRS management agreed with this recommendation and
       stated that its current processes will ensure such consideration is given if this situation
       occurs.
       Office of Audit Comment: We acknowledge the IRS’s agreement to our
       recommendation. However, based on the fact that no such specific instructions were
       included on its Web site in this situation, we question whether current processes will
       ensure that such consideration is given in the future if the situation occurs.

Some Taxpayers Were Assessed the Estimated Tax Penalty As a
Result of the Making Work Pay Credit
The United States income tax system operates on a “pay as you go” basis, meaning that
taxpayers must pay their income taxes throughout the year as their income is earned. Taxpayers
accomplish this either through quarterly estimated tax payments or through withholding on their
earnings. If taxpayers have significantly underpaid their taxes at the time they file their
individual income tax returns, they may be assessed an Estimated Tax Penalty. Taxpayers have
the option of computing this Penalty themselves or allowing the IRS to compute it for them.
The Making Work Pay Credit is being administered through reduced withholding. Those
taxpayers who are advanced more of the Making Work Pay Credit through reduced withholding
than they are entitled to may have their taxes underwithheld to the extent that they will be subject
to the Estimated Tax Penalty. On June 19, 2009, we issued an audit alert to the IRS discussing
this issue and recommending that the IRS make preparations to identify taxpayers who will have
the Estimated Tax Penalty assessed or increased due to the Making Work Pay Credit and take
steps to waive or abate the related Penalty amounts. The IRS stated that, to the extent the
Penalty is caused by the application of the change in withholding tables to those taxpayers for
                                                                                            Page 10
                                  Overall the Making Work Pay Credit
                             Was Implemented As Intended by the Congress,
                                but Resulted in Many Taxpayers Owing
                                      Taxes With Their Returns


whom the change was overbroad, waiver of the penalties would be appropriate. It took steps to
alert taxpayers to the availability of this relief by adding additional content to Tax Withholding
and Estimated Tax (Publication 505), the instructions for the Underpayment of Estimated Tax by
Individuals, Estates, and Trusts (Form 2210), and the instructions for Form 1040 on how affected
taxpayers should request a waiver of their Estimated Tax Penalty.
Using computer programming, we identified individuals who were assessed Estimated Tax
Penalties on their Tax Year 2009 tax returns and who were from those taxpayer segments we
determined would be likely to be negatively affected by the Making Work Pay Credit. We then
selected a sample of 116 returns17 and analyzed the taxpayers’ accounts to determine if the
Making Work Pay Credit could have caused the taxpayers to owe the Estimated Tax Penalty or
owe more Estimated Tax Penalty. We further analyzed the accounts to identify those taxpayers
who had not owed the Estimated Tax Penalty in the prior 3 years. See Appendix VII for the
assumptions we used in our analysis of these taxpayers’ returns.
From our sample of 116 taxpayers, we determined that the Making Work Pay Credit caused
91 taxpayers (78 percent) to owe or owe more Estimated Tax Penalty. We also found that
60 (66 percent) of the 91 taxpayers reviewed who owed the Penalty were assessed the Estimated
Tax Penalty for the first time since at least Tax Year 2005. (See Figures 4 and 5)

     Figure 4: Results of Estimated Tax Penalty                         Figure 5: First-Time
                Return Case Reviews                                    Estimated Tax Penalty
                                               22%
                     78%
                                                                                                  66%
                                                                       34%




          Credit did not cause or increase Estimated Tax Penalty        Not First-Time Estimated Tax Penalty
          Credit caused or increased Estimated Tax Penalty              First-Time Estimated Tax Penalty


                    Source: Case reviews.                                Source: Case reviews.

However, we also found that none of these taxpayers requested a waiver of the Penalty. In its
efforts to provide taxpayers relief from Estimated Tax Penalties caused by underwithholding due
to the Making Work Pay Credit, the IRS assumed that the taxpayers in need of relief from unfair
Estimated Tax Penalties would know about the Making Work Pay Credit, its effect on their
withholding, and the resulting effect on their Estimated Tax Penalty. As stated earlier, our
survey of taxpayers negatively affected by the Credit indicated that 88 percent of these taxpayers



17
  Eight returns were selected from each of cycles 5 through 18. Four returns were selected from cycle 4 because
there were only four Estimated Tax Penalty returns available in that cycle.
                                                                                                               Page 11
                               Overall the Making Work Pay Credit
                          Was Implemented As Intended by the Congress,
                             but Resulted in Many Taxpayers Owing
                                   Taxes With Their Returns


were not even aware of the Credit. Therefore, most of these taxpayers would not have known to
request a waiver of the Estimated Tax Penalty based on the Making Work Pay Credit.
Based on Tax Year 2007 data, we estimated that more than 122,000 taxpayers may be assessed
the Estimated Tax Penalty in Tax Year 2009 as a result of the Making Work Pay Credit. We also
estimated that an additional 1.15 million taxpayers may have their Estimated Tax Penalty amount
increased slightly due to the Making Work Pay Credit.18 Based on our sample of 11619 taxpayers
who were assessed the Estimated Tax Penalty, we are reducing our estimates to ensure that our
estimates are conservative. Our revised estimate is that approximately 108,000 taxpayers may
have been assessed an Estimated Tax Penalty who otherwise would not have, and an additional
1.02 million taxpayers may have had their Estimated Tax Penalty amount increased, both as a
result of the Making Work Pay Credit. The amount of Estimated Tax Penalty that may have
been assessed because of the Making Work Pay Credit for Tax Year 2009 totaled approximately
$12.0 million (over 2 years this would be about $24.1 million).
Recommendation
Recommendation 2: The Commissioner, Wage and Investment Division, should develop
proactive steps to identify those taxpayers who were assessed Estimated Tax Penalties in Tax
Year 2009 and who may be liable for the Penalty in Tax Year 2010 as a result of the Making
Work Pay Credit. Those taxpayers should then be informed that the IRS can waive or abate the
portion of the Estimated Tax Penalty related to the Credit.
         Management’s Response: IRS management partially agreed with this
         recommendation. They will continue to provide outreach to all taxpayers to remind them
         to check for underwithholding and related penalty issues; however, they do not plan to
         take additional steps to identify or make direct contact with taxpayers who may be liable
         for the incremental portion of the penalty attributed to the Making Work Pay Credit in
         Tax Year 2010.
         Office of Audit Comment: We believe the IRS needs to ensure that the outreach it
         provides is extensive and focused enough to reach all appropriate taxpayers.
         Furthermore, while the IRS does incur a cost to contact taxpayers directly, if these
         taxpayers owed more rather than less, the IRS would make direct contact to secure
         payment. As such, we are concerned that the IRS’s decision is solely based on the
         revenue effect rather than making sure the amount collected is correct.


18
   The Recovery Act contained provisions in which the Education Credit, Earned Income Credit, and Child Tax
Credit were increased. To ensure that our figures remained conservative, we excluded from our estimates all
Tax Year 2007 returns that claimed any one of these credits.
19
   This sample was a statically valid, stratified sample based on a 95 percent confidence level. Based on the
stratified sample, the average error rate and point estimate of taxpayers negatively affected is 88.78 percent with a
precision (range) between 79.30 percent and 98.25 percent.
                                                                                                              Page 12
                              Overall the Making Work Pay Credit
                         Was Implemented As Intended by the Congress,
                            but Resulted in Many Taxpayers Owing
                                  Taxes With Their Returns


                                                                                                 Appendix I

        Detailed Objectives, Scope, and Methodology

Interim (Phase 1) Detailed Objectives, Scope, and Methodology
The overall objective of this review was to assess IRS efforts to implement the Making Work
Pay Credit and to evaluate its impact on taxpayers. Other objectives included evaluating the
logic of the new withholding tables, quantifying the number of taxpayers who could be
negatively affected, and evaluating the effectiveness of IRS efforts to inform taxpayers of the
potential negative impacts.
To accomplish our objectives, we:
I.      Evaluated new withholding tables to ensure the Making Work Pay Credit will be
        allocated to taxpayers appropriately.
        A. Discussed with Department of the Treasury management the planning process for
           developing the new withholding tables and obtained available documentation.
        B. Identified the new amounts that were intended to be withheld and the reasoning for
           them (for both single and joint filers).
        C. Determined whether tables were accurately modified to ensure stimulus payments
           were distributed properly.
             1. Calculated the amount of annual withholding for a variety of income levels using
                the old tables.
             2. Calculated the amount of annual withholding for the same income levels as
                Step I.C.1. using the new tables.
             3. Determined the difference between the figures calculated in Steps I.C.1. and 2.
                We verified that single filers are having no more than $400 ($800 for joint filers)
                withheld by December 31, 2009.
             4. Determined whether phase-out limits1 will be properly applied using the tables.



1
  The phase-out limits in the law are different than those limits contained in the new withholding tables. The new
tables begin phasing out at about $66,530 ($118,130 for joint filers) and phase out completely at about $84,300
($144,800 for joint filers). In determining the number of taxpayers negatively affected, we used the phase-out
amounts found in the new tables. The tables were designed this way in an attempt to compromise between one- and
two-earner families.
                                                                                                         Page 13
                               Overall the Making Work Pay Credit
                          Was Implemented As Intended by the Congress,
                             but Resulted in Many Taxpayers Owing
                                   Taxes With Their Returns


II.      Identified groups of taxpayers that could be negatively affected by the Making Work Pay
         Credit and quantified the results.
         A. Quantified the number of single taxpayers who had multiple Wage and Tax
            Statements (Form W-2) in Tax Year 2007 and had a refund of less than $400.
             1. Obtained a list of single filers who had multiple Forms W-2 from the IRS’s
                Information Returns Master File.2
             2. Matched Information Returns Master File data with TIGTA Data Center
                Warehouse3 data to determine how many single filers with multiple Forms W-2
                had refunds less than $400.
             3. Obtained figures from the IRS Statistics of Income function of the number of
                single filers with multiple Forms W-2 to evaluate the completeness of Information
                Returns Master File and Data Center Warehouse data.
             4. Validated the reliability of Information Returns Master File data as well as the
                data from our Data Center Warehouse by reviewing a random sample of five
                records or accounts for each database and verifying the data met extract criteria
                and were valid per IRS files.
         B. Quantified the number of joint filers who had multiple Forms W-2 in Tax Year 2007
            and had a refund of less than $400. For example, a household in which both spouses
            were employed for the whole year during Calendar Year 2009, by the end of the year,
            these taxpayers will have had $1,200 ($600 x 2) less withheld from their wages. As
            joint filers, they are eligible for $800 and will therefore have to pay back the extra
            $400.
             1. Obtained a list of joint filers who had multiple Forms W-2 from the Information
                Returns Master File.
             2. Obtained a list of joint filers where both spouses had a Form W-2 in Tax
                Year 2007 and a refund of less than $400 from the Data Center Warehouse.
             3. Matched Information Returns Master File data with Data Center Warehouse data
                to determine how many joint filers with multiple Forms W-2 had refunds of less
                than $400.
             4. Obtained figures from the IRS Statistics of Income function to determine the
                number of joint filers with multiple Forms W-2. We used this count to evaluate


2
  The Information Returns Master File is the IRS database that stores data from various types of information returns.
3
  The Data Center Warehouse is a collection of IRS Databases containing various types of taxpayer account
information that is maintained by the TIGTA for the purpose of analyzing data for ongoing audits.
                                                                                                            Page 14
                  Overall the Making Work Pay Credit
             Was Implemented As Intended by the Congress,
                but Resulted in Many Taxpayers Owing
                      Taxes With Their Returns


       the reasonableness of the Information Returns Master File data and Data Center
       Warehouse data.
   5. Assessed the reliability of Information Returns Master File data as well as the
      data from our Data Center Warehouse by reviewing a random sample of five
      records or accounts for each database and verifying the data met extract criteria
      and were valid per IRS files.
C. Quantified the number of dependents who had both a Form W-2 in Tax Year 2007
   and had a refund of less than $400.
   1. Obtained a list of data from the Data Center Warehouse to determine how many
      dependents reported wages and had a refund less than $400.
   2. Obtained figures from the Statistics of Income function to determine the number
      of dependents with a Form W-2. We used this count to evaluate the completeness
      of the Data Center Warehouse data.
   3. Assessed the reliability of the data by reviewing a random sample of five records
      or accounts and verified the data met extract criteria and were valid per IRS files.
D. Determined the number of taxpayers who received pensions that could be negatively
   affected by the Making Work Pay Credit.
   1. Used Data Center Warehouse data to identify taxpayers (married or single) who
      received pensions in Tax Year 2007 and had a refund of $650, $600, or $400
      depending on their situation. See the following examples:
       $650 – A single taxpayer receives pension payments, receives Social Security
       benefits, and is employed for the whole year during Calendar Year 2009. This
       individual will receive $400 through his or her pension, $400 through his or her
       wages, and $250 from the Social Security Administration. By the end of the year,
       this household will have received an extra $1,050. As a single filer who is
       employed, this individual is eligible for $400 and will therefore have to pay back
       the extra $650 that he or she received during the year. This scenario is
       exacerbated if taxpayers have more than one job.
       $600 – A joint filer receives a pension and Social Security benefits, but does not
       work during Calendar Year 2009. This household will receive $600 through the
       pension and $250 from the Social Security Administration. By the end of the
       year, this household will have received $850. The household only qualifies for
       the Social Security Administration payment, meaning that they will owe $600
       when they file their Tax Year 2009 return. This scenario is exacerbated if each
       spouse is receiving a pension.


                                                                                   Page 15
                   Overall the Making Work Pay Credit
              Was Implemented As Intended by the Congress,
                 but Resulted in Many Taxpayers Owing
                       Taxes With Their Returns


       $400 – A joint filer receives a pension, is employed during Calendar Year 2009,
       but does not receive Social Security benefits. This household will receive $600
       through the pension and $600 through the wages, for a total of $1,200. As a joint
       filer who is employed, this household is eligible for $800, meaning that they will
       owe $400 when they file their Tax Year 2009 return. This scenario is exacerbated
       if each spouse is employed or receives a pension.
       A single taxpayer who receives a pension during Tax Year 2009 and neither
       works nor receives Social Security benefits will receive $400 through his or her
       pension. Since pensions are specifically excluded from the definition of earned
       income on which the Making Work Pay Credit is based, he or she will have to pay
       the entire amount back that was advanced to him or her.
   2. Assessed the reliability of the data by reviewing a random sample of 5 records or
      accounts (for each of the 8 pension scenarios for a total of 40 records) and
      verified the data met extract criteria and were valid per IRS files.
   3. Discussed with IRS management the use of the withholding tables for pensioners.
E. Determined whether controls were in place to prevent recipients of Social Security
   benefits, veterans’ benefits, and railroad retirement benefits from receiving duplicate
   economic stimulus payments if they qualify for more than one of these benefits. This
   information was gathered through a discussion with an employee at the Railroad
   Retirement Inspector General and a review of the Social Security Administration
   notice regarding the economic recovery payment.
F. Determined the number of taxpayers who filed a return using an individual taxpayer
   identification number (ITIN) that could be negatively affected by the Making Work
   Pay Credit.
   1. Used Data Center Warehouse data to identify taxpayers (married or single) who
      filed a return using an ITIN in Tax Year 2007 and had a refund of $400 or less if
      single or $600 or less if married. See the following example:
       $600 – Married taxpayers who have ITINs rather than Social Security numbers
       were employed for the whole year during Calendar Year 2009. By the end of the
       year, these taxpayers will have had $1,200 less withheld from their wages ($600
       each). Because they have ITINs rather than Social Security numbers, they are not
       eligible for the Making Work Pay Credit and will have to pay back the $1,200 that
       they were advanced during the year through decreased withholding. If these
       taxpayers usually receive a $200 refund, they will owe $1,000 when they file their
       Tax Year 2009 tax return. This scenario is exacerbated if either spouse has more
       than one job.


                                                                                  Page 16
                  Overall the Making Work Pay Credit
             Was Implemented As Intended by the Congress,
                but Resulted in Many Taxpayers Owing
                      Taxes With Their Returns


   2. Assessed the reliability of the data by reviewing a random sample of five records
      or accounts for single ITIN filers and five records or accounts for joint ITIN filers
      and verified the data met extract criteria and were valid per IRS files.
G. Determined the number of taxpayers who may be assessed the Estimated Tax Penalty
   for underpayment of estimated tax as a result of receiving the Making Work Pay
   Credit erroneously.
   1. Contacted IRS management to determine the Penalty computation in order to
      better identify taxpayers who may be directly affected.
   2. Contacted the IRS to determine how it plans to work cases that are assessed the
      Estimated Tax Penalty as a result of the Making Work Pay Credit and if the
      effects of the Making Work Pay Credit will be considered a reasonable cause to
      abate the Penalty.
   3. Quantified the number of taxpayers that may be assessed the Estimated Tax
      Penalty as a result of receiving an erroneous amount of the Making Work Pay
      Credit.
   4. Assessed the reliability of the data by randomly selecting and reviewing five
      records or accounts for each identified scenario.
H. Determined the number of Social Security recipients who also have wages that could
   be negatively affected by the Making Work Pay Credit.
   1. Used Data Center Warehouse data to identify taxpayers (married or single) who
      received both Social Security benefits and wages and who had a refund of $50 or
      less if married and $250 or less if single. See the following examples:
       $50 – A joint filing household who receives Social Security benefits will receive a
       $250 stimulus check from the Secretary of the Treasury in Tax Year 2009. This
       household will also have $600 advanced to them through their decreased
       withholding at work. This household will receive a total of $850 in stimulus
       funds even though they qualify for only $800. Therefore, they will be required to
       repay the excess $50 received.
       $250 – A single taxpayer who receives Social Security benefits will receive a
       $250 stimulus check from the Secretary of the Treasury in Tax Year 2009. This
       individual will also have $400 advanced to him or her through decreased
       withholding at work. This individual will receive a total of $650 in stimulus
       funds even though he or she qualifies for only $400. Therefore, he or she will be
       required to repay the excess $250 received.



                                                                                   Page 17
                               Overall the Making Work Pay Credit
                          Was Implemented As Intended by the Congress,
                             but Resulted in Many Taxpayers Owing
                                   Taxes With Their Returns


             2. Assessed the reliability of the data by reviewing a random sample of
                five single-filer and five joint-filer records or accounts and verified the data met
                extract criteria and were valid per IRS files.
III.     Determined the effectiveness of IRS outreach efforts to notify taxpayers of the new
         Making Work Pay Credit.
         A. Determined whether the Department of the Treasury or the IRS attempted to identify
            taxpayers who could be negatively affected by the Making Work Pay Credit.
         B. Performed research and obtained information from IRS management regarding the
            actions that have been taken (e.g., newsletters published) to inform taxpayers about
            the Making Work Pay Credit and what they can do to avoid owing taxes in
            Tax Years 2009 and 2010 as a result of the Making Work Pay Credit.
         C. Sampled taxpayers negatively affected by the Making Work Pay Credit and
            determined whether they are aware of the Credit.
             1. Selected a sample4 of 385 taxpayers from the groups negatively affected and
                researched telephone numbers for them.
             2. Contacted 50 of these taxpayers via telephone in May 2009 to determine their
                awareness of the Making Work Pay Credit and its potential negative effects and
                their knowledge of what can be done to avoid the negative effects.
             3. Contacted an additional 50 taxpayers in July 2009 to determine the effectiveness
                of the IRS’s general awareness campaign to notify taxpayers of the Making Work
                Pay Credit.
             4. Contacted an additional 14 taxpayers in August 2009 from the categories of single
                filers and joint filers with multiple jobs to determine the effectiveness of the IRS’s
                general awareness campaign to notify taxpayers of the Making Work Pay Credit.
Final (Phase 2) Detailed Objectives, Scope, and Methodology
For this phase of the audit, the overall objective was to evaluate the negative impact of the
Making Work Pay Credit on taxpayers’ Tax Year 2009 income tax returns and to determine
taxpayer awareness of the potential negative impacts of the Making Work Pay Credit and what to
do to avoid those negative impacts. To accomplish our objectives, we:




4
  We selected a judgmental sample using the interval sampling method. A judgmental sample was used because the
results were not to be projected over the population of negatively affected taxpayers (15.4 million). The additional
64 taxpayers in III.C.3 and III.C.4 were selected using the same method.
                                                                                                           Page 18
                               Overall the Making Work Pay Credit
                          Was Implemented As Intended by the Congress,
                             but Resulted in Many Taxpayers Owing
                                   Taxes With Their Returns


I.       Identified taxpayers negatively affected by the Making Work Pay Credit in the form of a
         balance due or increased balance due return5 upon filing their Tax Year 2009 return.6
         A. Quantified the number of taxpayers that were negatively affected by the Making
            Work Pay Credit in Tax Year 2009.
             1. Obtained balance due and full paid7 account data from the IRS Master File8 for
                Tax Year 2009.
             2. Assessed the reliability of the data by reviewing the initial data set and verifying
                that the data met the extract criteria and was valid per IRS files.
             3. Filtered the data obtained from the request to separate the different groups of
                taxpayers who were negatively affected by the Making Work Pay Credit.
             4. Analyzed a statistical sample9 (see “Sample methodology” below) of taxpayer
                accounts to determine whether they were negatively affected by the Making Work
                Pay Credit. [Considered that other tax effects could account for the changes
                (e.g., loss of other credits, deductions, or exemptions; increases in
                self-employment income; decreases in estimated tax payments; etc.)].
             5. Contacted 405 of the taxpayers that were negatively affected by the Making Work
                Pay Credit to determine whether they were aware of the potential negative effects
                of the Making Work Pay Credit and if they took any action to adjust their
                withholding.
         B. Quantified the number of taxpayers that had not owed taxes (balance due) for at least
            the prior 3 years upon filing their Tax Year 2009 return.
             1. Obtained balance due and full paid account data from the IRS’s Master File for
                Tax Year 2009.
             2. Matched the data found in Step 1 above with tables containing taxpayers who
                received a refund or didn’t file in Tax Years 2006, 2007, and 2008.

5
  A balance due return is a return for which the tax owed exceeded withholding, estimated tax payments, and other
credits and the taxpayer did not pay the amount of tax due with his or her return
6
  The returns examined were processed during cycles 4 through 18, representing the time period from January 24
through May 8, 2010. A cycle is 1 week’s processing at a Campus or at Martinsburg or Tennessee Computing
Centers. There are 52 cycles in a year. Whenever a reference is made to the review or request of Tax Year 2009
returns, the data were obtained from cycles 4 through 18 as previously stated.
7
  A full paid return is a return that would have been a balance due return, but the taxpayer paid the amount owed
with his or her return.
8
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
9
  A statistical sample was selected because the results were to be used to adjust our estimate of negatively affected
taxpayers based on Tax Year 2007 data previously reported.
                                                                                                             Page 19
                          Overall the Making Work Pay Credit
                     Was Implemented As Intended by the Congress,
                        but Resulted in Many Taxpayers Owing
                              Taxes With Their Returns


II.    Identified taxpayers negatively affected by the Estimated Tax Penalty as a result of the
       Making Work Pay Credit.
       A. Quantified the number of taxpayers that owed the Estimated Tax Penalty as a result of
          the Making Work Pay Credit for Tax Year 2009.
           1. Obtained account data from the IRS’s Master File for taxpayers who owed an
              Estimated Tax Penalty for Tax Year 2009.
           2. Filtered the account data obtained in Step 1 above to separate the different groups
              of taxpayers who were assessed the Estimated Tax Penalty.
           3. Analyzed a statistical sample of taxpayer accounts (see “Sample methodology”
              below) to determine whether they were assessed the Estimated Tax Penalty or an
              increased Estimated Tax Penalty as a result of the Making Work Pay Credit.
           4. Contacted 96 taxpayers who were assessed the Estimated Tax Penalty as a result
              of the Making Work Pay Credit to determine whether: (1) they were aware of the
              potential negative effects of the Making Work Pay Credit on their withholding or
              (2) they had taken or will take any action to adjust their withholding.
       B. Quantified the number of taxpayers who had not owed Estimated Tax Penalty for at
          least the prior three years upon filing their Tax Year 2009 return.
           1. Obtained account data from the IRS’s Master File for those taxpayers who owed
              an Estimated Tax Penalty for Tax Year 2009.
           2. Matched the data found in Step 1 above with Master File data containing
              taxpayers who were not assessed the Estimated Tax Penalty in Tax Years 2006,
              2007, and 2008.
III.   Determined the effectiveness of the IRS’s outreach efforts for Tax Year 2010.
       A. Reviewed mediums that the IRS used to inform taxpayers about the Making Work
          Pay Credit and its potential negative effects.
       B. Reviewed the IRS’s actions that would help reduce the negative effects of the Making
          Work Pay Credit.
Sampling methodology
A statistical sample was selected because the results were to be used to adjust our estimate of
negatively affected taxpayers based on Tax Year 2007 data previously reported. The population
of taxpayer accounts available from cycles 4 through 18 could not be determined at the time the
sample was selected. An even number of accounts were randomly selected from each cycle as
the data were obtained. The results from each cycles’ analysis were then weighted based on a


                                                                                          Page 20
                          Overall the Making Work Pay Credit
                     Was Implemented As Intended by the Congress,
                        but Resulted in Many Taxpayers Owing
                              Taxes With Their Returns


95 percent confidence level to calculate the precision (plus or minus 7.29 percent for Estimated
Tax Penalty accounts and plus or minus 5.64 percent for balance due/full paid accounts).
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’s policies, procedures, and
practices related to the implementation of the Making Work Pay Credit. To assess these controls
we:
    •   Analyzed balance due/full paid accounts to determine the negative effects of the Making
        Work Pay Credit.
    •   Analyzed accounts with the Estimated Tax Penalty to determine the negative effects of
        the Making Work Pay Credit .
    •   Reviewed mediums the IRS used to inform taxpayers about the Making Work Pay Credit
        and its potential negative effects.
    •   Reviewed the IRS’s actions that would help reduce the negative affects of the Making
        Work Pay Credit.




                                                                                          Page 21
                         Overall the Making Work Pay Credit
                    Was Implemented As Intended by the Congress,
                       but Resulted in Many Taxpayers Owing
                             Taxes With Their Returns


                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Kyle R, Andersen, Director
Bill R. Russell, Audit Manager
W. George Burleigh, Lead Auditor
Roy E. Thompson, Senior Auditor
Lance J. Welling, Auditor
Brian Hattery, Information Technology Specialist
Martha Stuart, Information Technology Specialist




                                                                                    Page 22
                        Overall the Making Work Pay Credit
                   Was Implemented As Intended by the Congress,
                      but Resulted in Many Taxpayers Owing
                            Taxes With Their Returns


                                                                       Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Counsel OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                               Page 23
                              Overall the Making Work Pay Credit
                         Was Implemented As Intended by the Congress,
                            but Resulted in Many Taxpayers Owing
                                  Taxes With Their Returns


                                                                                               Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable effect that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.
Type and Value of Outcome Measure:
•   Reduction of Burden on Taxpayers – Actual; 87,243 nonresident alien taxpayer accounts
    affected (see page 6).
Methodology Used to Measure the Reported Benefit:
Using TIGTA Data Center Warehouse1 queries, we identified 87,243 ITIN filers (based on
Tax Year 2007 data) that could either be in a balance due2 or increased balance due situation
upon the filing of their Tax Year 2009 tax return as a result of the Making Work Pay Credit. In
Tax Year 2007, 2,287,170 individuals with an ITIN (2 ITINs for a joint return) filed income tax
returns. This population was filtered by refund amount to reach the final figure. For ITINs, we
only wanted those single filers whose refund was less than or equal to $400 ($600 joint3), since
that is the amount of the Making Work Pay Credit they will receive during Tax Year 2009 and
will have to pay back when filing their Tax Year 2009 return. Although many ITIN filers will be
affected due to the fact that they will have a reduced refund, we defined “negatively affected” as
those that will be in a balance due situation.
The IRS has taken corrective action that applies to Tax Year 2010. This will reduce the burden
on an estimated 87,243 taxpayers. This modified procedure went into effect for figuring the
amount of income tax withholding for nonresident alien employees working in the United States.
An amount is to be added to employees’ wages prior to calculating the withholding. The
additional wage amount is only to be used for withholding purposes. Then employers are to use
a separate set of withholding tables that apply only to nonresident aliens. The effect of the

1
  The Data Center Warehouse is a collection of IRS databases containing various types of taxpayer account
information that is maintained by the TIGTA for the purpose of analyzing data for ongoing audits.
2
  A balance due return is a return for which the tax owed exceeded withholding, estimated tax payments, and other
credits and the taxpayer did not pay the amount of tax due with his or her return.
3
  $600 – Married taxpayers who have ITINs rather than Social Security numbers were employed for the whole year
during Calendar Year 2009. By the end of the year, these taxpayers will have had $1,200 less withheld from their
wages ($600 each). Because they have ITINs rather than Social Security numbers, they are not eligible for the
Making Work Pay Credit and will have to pay back the $1,200 that they were advanced during the year through
decreased withholding. If these taxpayers usually receive a $200 refund, they will owe $1,000 when they file their
Tax Year 2009 tax return. This scenario is exacerbated if either spouse has more than one job.
                                                                                                          Page 24
                               Overall the Making Work Pay Credit
                          Was Implemented As Intended by the Congress,
                             but Resulted in Many Taxpayers Owing
                                   Taxes With Their Returns


additional amount being added to the wages and the separate withholding tables will offset the
standard deduction and the Making Work Pay Credit that would have been advanced to these
taxpayers even though they do not qualify for the Credit.
Type and Value of Outcome Measure:
•   Reduction of Burden on Taxpayers – Potential; 11,061,034 taxpayer accounts affected over
    2 years (see page 6).
Methodology Used to Measure the Reported Benefit:
Using Data Center Warehouse queries, we identified 6,321,313 pensioners (based on
Tax Year 2007 data) that could either be in a balance due or increased balance due situation upon
the filing of their Tax Year 2009 tax return as a result of the Making Work Pay Credit. Based on
our sample (see Appendix V for sample detail) of 465 taxpayers who were negatively affected by
the Making Work Pay Credit when they filed their Tax Year 2009 returns, we are reducing our
estimates.4 We now estimate that 5,530,5175 pensioners may have been negatively affected as a
result of the Making Work Pay Credit. In Tax Year 2007, 28,451,932 tax returns were filed that
reported some form of a pension (gross or taxable). This population was filtered by refund
amount to reach the final figure. For pensioners, we only wanted those whose refund was less
than or equal to $650, $600, or $400 (see Appendix I, pages 16–17) since these are the excess
amounts of the Making Work Pay Credit they will receive during Tax Year 2009 and will have
to pay back when filing their Tax Year 2009 return. Although many pensioners will be affected
due to the fact that they will have a reduced refund, we defined “negatively affected” as those
that will be in a balance due situation.
If the IRS took our recommended actions, it could have reduced burden on 11,061,034 taxpayers
over a 2-year period.
Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; $24,143,843 (over 2 years) affecting
    2,269,158 taxpayer accounts (see page 10).
Methodology Used to Measure the Reported Benefit:
Using data from the Data Center Warehouse and the IRS Master File, we identified 1,277,967
taxpayers (based on Tax Year 2007 data) who could be either assessed the Estimated Tax
Penalty or be assessed a larger Estimated Tax Penalty than expected upon the filing of their Tax
Year 2009 tax return. The Making Work Pay Credit is administered to taxpayers through


4
  This sample was a statically valid, stratified sample based on a 95 percent confidence level. Based on the stratified
sample, the average error rate and point estimate of taxpayers negatively affected is 87.49 percent with a precision
(range) between 79.56 percent and 95.41 percent.
5
  5,530,517 equals .8749 (see footnote above) multiplied by the estimated 6,321,313 pensioners.
                                                                                                             Page 25
                               Overall the Making Work Pay Credit
                          Was Implemented As Intended by the Congress,
                             but Resulted in Many Taxpayers Owing
                                   Taxes With Their Returns


reduced withholding. Those taxpayers who receive too much of the Credit or receive the Credit
when they do not qualify will be underwithheld and will be required to pay back the amounts
they received in excess of what they are eligible for. Of those individuals, anyone who meets or
almost meets the criteria of the Estimated Tax Penalty could be assessed the Penalty or an
increased Penalty as a result of the administration of the Making Work Pay Credit. This could be
done through no fault of their own.
Approximately 122,066 taxpayers may be assessed the Estimated Tax Penalty who would have
otherwise not met the Penalty’s criteria. Approximately 1,155,901 taxpayers may be assessed an
unexpected increase in the amount of their Estimated Tax Penalty. Based on our sample of
116 taxpayers (see Appendix V for sample detail) who were assessed the Estimated Tax Penalty
when they filed their Tax Year 2009 returns, we are reducing our estimates to ensure that our
estimates are conservative.6 We estimate that 108,370 taxpayers may have been assessed the
Estimated Tax Penalty as a result of the Making Work Pay Credit. We also estimate that an
additional 1,026,209 taxpayers may have had their Estimated Tax Penalty amount increased due
to the Making Work Pay Credit.7 We estimate that the amount of Estimated Tax Penalty that
may have been assessed because of the Making Work Pay Credit for Tax Year 2009 totaled
$12,071,922.
The total estimated amount of the Estimated Tax Penalty assessed because of the Making Work
Pay Credit ($12,071,922) is the result of multiplying the number of taxpayers affected
(108,370 + 1,026,209) by $10.64. The amount of $10.64 is the increment by which the
Estimated Tax Penalty will increase for each underpayment of $400 beyond $1,000. The
average underpayment of the Estimated Tax Penalty cases as a result of the Making Work Pay
Credit was $462 above the $1,000 threshold. To maintain our conservative approach of the
estimate, we used $10.64.
Projected over 2 years, $24,143,843 ($12,071,922 x 2) in Estimated Tax Penalty may be assessed
taxpayers, as a result of the Making Work Pay Credit, affecting 2,269,158 taxpayer accounts
((108,370+1,026,209) x 2).




6
  This sample was a statically valid, stratified sample based on a 95 percent confidence level. Based on the stratified
sample, the average error rate and point estimate of taxpayers negatively affected is 88.78 percent with a precision
(range) between 79.30 percent and 98.25 percent.
7
  The amounts 108,370 and 1,026,209 equal .8878 (see footnote above) multiplied by estimated 122,066 and
1,155,901 respectively.
                                                                                                             Page 26
                              Overall the Making Work Pay Credit
                         Was Implemented As Intended by the Congress,
                            but Resulted in Many Taxpayers Owing
                                  Taxes With Their Returns


                                                                                                Appendix V

                                      Sampling Process

The raw data from our computer programs contained the following:
    1) All Tax Year 2009 balance due1 and full paid2 returns processed in Calendar Year 2010
       from cycles3 4 through 18 that had withholdings.
    2) All Tax Year 2009 returns processed in Calendar Year 2010 from cycles 4 through
        18 that had withholdings and an Estimated Tax Penalty.

                                                   Raw Data
                                               Balance Due          Estimated
                                   Cycle       or Full Paid        Tax Penalty
                                 Cycle 4                  881                11
                                 Cycle 5                4,896               136
                                 Cycle 6               18,106               850
                                 Cycle 7               46,498             3,175
                                 Cycle 8               75,896             6,821
                                 Cycle 9              124,715            12,421
                                 Cycle 10             153,044            17,180
                                 Cycle 11             251,817            30,384
                                 Cycle 12             244,850            35,345
                                 Cycle 13             293,873            49,124
                                 Cycle 14             350,356            62,624
                                 Cycle 15             519,375            89,990
                                 Cycle 16             978,118           161,656
                                 Cycle 17           1,634,892           394,797
                                 Cycle 18           1,669,662           569,832
                                 Totals             6,366,979         1,434,346




1
  A balance due return is a return for which the tax owed exceeded withholding, estimated tax payments, and other
credits and the taxpayer did not pay the amount of tax due with his or her return.
2
  A full paid return is a return that would have been a balance due return, but the taxpayer paid the amount owed
with his or her return.
3
  A cycle is 1 week’s processing at a Campus or at Martinsburg or Tennessee Computing Centers. There are
52 cycles in a year.
                                                                                                         Page 27
                              Overall the Making Work Pay Credit
                         Was Implemented As Intended by the Congress,
                            but Resulted in Many Taxpayers Owing
                                  Taxes With Their Returns



Balance Due or Full Paid
Through cycle 18, the IRS had processed 6,366,979 tax returns on which the tax owed exceeded
withholding, estimated tax payments, and other credits. From these tax returns, we identified
4,848,933 returns filed by taxpayers with those specific conditions that we had previously
determined may cause the taxpayers to be negatively affected by the Making Work Pay Credit.
(See “Categories of Taxpayers” starting on page 31). We selected a statistical sample (weighted
stratified sample) of 31 returns from each cycle. A total of 465 tax accounts were selected and
reviewed.


       Taxpayers From Each Cycle Filing Balance Due or Full Paid Returns With Conditions That
          May Have Caused Them to Be Negatively Affected by the Making Work Pay Credit

                  Single –            Joint –                      Social
                  Multiple           Multiple                     Security
      Cycle      Forms W-24         Forms W-2      Dependents    Recipients    Pensioners      Total
    Cycle 4                   42             28           183            21             98         372
    Cycle 5                   341           320           981           170            621       2,433
    Cycle 6              1,460            2,017          3,079          832          3,886      11,274
    Cycle 7              3,142            5,568          7,013         2,160        15,676      33,559
    Cycle 8              4,628            9,263         10,668         3,430        30,187      58,176
    Cycle 9              5,466           12,838         19,601         5,711        51,204      94,820
    Cycle 10             6,315           16,613         21,270         7,278        65,226     116,702
    Cycle 11             7,626           25,724         28,450        12,416       112,403     186,619
    Cycle 12             9,279           29,834         23,054        12,041       113,747     187,955
    Cycle 13            11,232           33,728         26,492        15,199       140,609     227,260
    Cycle 14            14,343           44,627         30,939        17,583       164,058     271,550
    Cycle 15            19,742           64,043         41,788        25,862       245,217     396,652
    Cycle 16            43,869          138,171        111,517        44,088       419,249     756,894
    Cycle 17            83,643          315,954        127,178        76,445       674,255    1,277,475
    Cycle 18            80,244          332,708         75,689        82,617       655,934    1,227,192
    Totals             291,372         1,031,436       527,902       305,853      2,692,370   4,848,933




4
    Wage and Tax Statement.
                                                                                               Page 28
                             Overall the Making Work Pay Credit
                        Was Implemented As Intended by the Congress,
                           but Resulted in Many Taxpayers Owing
                                 Taxes With Their Returns


Estimated Tax Penalty
Through cycle 18, the IRS had processed 1,434,346 tax returns with Estimated Tax Penalties.
From these tax returns, we identified 1,141,453 returns filed by taxpayers with those specific
conditions that we had previously determined may cause the taxpayers to be negatively affected
by the Making Work Pay Credit. (See “Categories of Taxpayers” starting on page 31). We
selected a statistical sample (weighted stratified sample) of eight returns from each cycle.
(Cycle 4 did not have eight accounts available so only four cases were selected and reviewed). A
total of 116 tax accounts were selected and reviewed.


         Taxpayers From Each Cycle Assessed Estimated Tax Penalties With Conditions That
          May Have Caused Them to Be Negatively Affected by the Making Work Pay Credit

                Single –            Joint –                           Social
                Multiple           Multiple                          Security
  Cycle        Forms W-2          Forms W-2       Dependents        Recipients       Pensioners    Total
Cycle 4                       0               0                 0                0            4            4
Cycle 5           ***1***                 13                    0                7           31            53
Cycle 6                     33           120         ***1***                 68             339         562
Cycle 7                     147          440                    8           233           1,535      2,363
Cycle 8                     279          965                   22           381           3,819      5,466
Cycle 9                     394         1,597                  34           772           7,083      9,880
Cycle 10                    487         2,070                  45         1,063           9,956     13,621
Cycle 11                    670         3,141              134            1,858          17,780     23,583
Cycle 12                    854         4,183              121            2,042          21,604     28,804
Cycle 13                1,104           6,019              153            3,113          29,422     39,811
Cycle 14                1,476           8,324              219            3,846          37,090     50,955
Cycle 15                1,921          11,672              307            5,731          51,715     71,346
Cycle 16                3,314          21,373              483            9,650          96,657    131,477
Cycle 17               10,560          77,861            1,307           23,535         210,238    323,501
Cycle 18               15,990         121,651            2,204           34,793         265,389    440,027
Totals                 37,231         259,429            5,039           87,092         752,662   1,141,453




                                                                                                   Page 29
                           Overall the Making Work Pay Credit
                      Was Implemented As Intended by the Congress,
                         but Resulted in Many Taxpayers Owing
                               Taxes With Their Returns


Categories of Taxpayers
Taxpayers listed below could be negatively affected by the Making Work Pay Credit because
they could be advanced more of the Credit than they are eligible to claim. Our criteria for
selecting cases for inclusion in our population are shown in the associated tables.
1. Single with multiple Forms W-2
                                                   Filing Status                  Not equal to      2
If a single taxpayer worked 2 jobs
                                                   Dependent Indicator              Equal to        0
concurrently from April through
December 2009, he or she will have been            Wages                          Greater than      0
advanced up to $400 from each job, for a total     Gross Social Security            Equal to        0
of $800. This taxpayer is only eligible for
                                                   Taxable Social Security          Equal to        0
$400 total; therefore, the excess $400 had to
be paid back when he or she filed his or her       Taxable Social Security - CP     Equal to        0
Tax Year 2009 return.                              Taxable Pension                  Equal to        0

                                                   Gross Pension                    Equal to        0

                                                   Number of Forms W-2            Greater than      1




2. Joint with multiple Forms W-2
                                                   Filing Status                    Equal to        2
If jointly filing taxpayers worked and their       Dependent Indicator              Equal to        0
spouse did as well from April through
                                                   Wages                          Greater than      0
December 2009, they will have been advanced
up to $600 from each job, for a total of $1,200.   Gross Social Security            Equal to        0
These taxpayers are only eligible for $800         Taxable Social Security          Equal to        0
total; therefore, the excess $400 had to be paid
                                                   Taxable Social Security - CP     Equal to        0
back when they filed their Tax Year 2009
return.                                            Taxable Pension                  Equal to        0

                                                   Gross Pension                    Equal to        0

                                                   Number of Forms W-2            Greater than      1




3. Dependents with wages                            Dependent Indicator             Equal to        1
Dependents do not qualify for any portion of     Wages                       Greater than    0
the Making Work Pay Credit. A dependent
who worked from April 2009 to December 2009 will have been advanced up to $400. Since
dependents are not eligible for the Making Work Pay Credit, the entire $400 had to be paid back


                                                                                                 Page 30
                           Overall the Making Work Pay Credit
                      Was Implemented As Intended by the Congress,
                         but Resulted in Many Taxpayers Owing
                               Taxes With Their Returns


when this dependent filed his or her Tax Year 2009 return. This is exacerbated if the dependent
worked two or more jobs concurrently during Tax Year 2009.

4. Single Social Security recipient with wages
A single taxpayer in this category who has one
job from April through December 2009 will          Filing Status                  Not equal to      2
have been advanced up to $400. This taxpayer       Dependent Indicator              Equal to        0
would have also received a $250 economic
                                                   Wages                          Greater than      0
recovery payment because he or she is a
Social Security recipient. The Making Work         Gross Social Security          Greater than     0 or
Pay Credit is reduced by any economic              Taxable Social Security        Greater than     0 or
recovery payment received, meaning that this       Taxable Social Security - CP   Greater than      0
taxpayer qualifies for the Making Work Pay
Credit in the amount of $150 ($400–$250).          Taxable Pension                  Equal to        0
The excess $250 received through his or her        Gross Pension                    Equal to        0
employment had to be paid back when he or
she filed his or her Tax Year 2009 return.


5. Joint Social Security recipients with wages
Jointly filing taxpayers in this category with     Filing Status                  Equal to      2
one job from April through December 2009           Dependent Indicator            Equal to      0
will have been advanced up to $600. These          Wages                        Greater than    0
taxpayers would have also received at least
                                                   Gross Social Security        Greater than   0 or
one $250 economic recovery payment because
they are Social Security recipients. The           Taxable Social Security      Greater than   0 or
Making Work Pay Credit is reduced by any           Taxable Social Security - CP Greater than    0
economic recovery payment received, meaning
                                                   Taxable Pension                Equal to      0
that these taxpayers qualify for the Making
Work Pay Credit in the amount of                   Gross Pension                  Equal to      0
$550 ($800–$250). The excess $50 received
through their employment had to be paid back when they filed their Tax Year 2009 return. This
is exacerbated if each spouse works or if each spouse is eligible for Social Security and received
a $250 economic recovery payment (for a total of $500).




                                                                                                 Page 31
                           Overall the Making Work Pay Credit
                      Was Implemented As Intended by the Congress,
                         but Resulted in Many Taxpayers Owing
                               Taxes With Their Returns


Pensioners
                                                    Dependent Indicator           Equal to      0
Pensions do not qualify for the Making Work
Pay Credit; however, the IRS instructed             Taxable Pension            Greater than 0 or
pension administrators to apply the reduced         Gross Pension             Greater than   0
withholding tables to pensions. These tables
were designed to advance the Making Work Pay Credit to wage earners. The IRS later issued
additional tables that could be used by pension administrators to offset the Making Work Pay
Credit. The use of the additional tables is optional.

Prior to filtering into the following eight pension categories, one overall pension filter was used
to reduce repetition.

6. Single pensioner with wages and Social Security
Single pensioners with wages and Social
Security can be negatively affected by the         Filing Status                Not equal to  2

Making Work Pay Credit because they can be         Wages                        Greater than  0
advanced more of the Credit than they are          Gross Social Security        Greater than 0 or
eligible for. The Making Work Pay Credit
                                                   Taxable Social Security      Greater than 0 or
does not apply to pensions. Take, for
example, a single pensioner who receives a         Taxable Social Security - CP Greater than  0
pension from April through December 2009, is
employed for that time period, and receives Social Security for that time period. Up to $400
would have been advanced through the pension, up to $400 would have been advanced through
the job, and a $250 economic recovery payment would have been received. This individual will
have received $1,050. The taxpayer qualifies for the Making Work Pay Credit in the amount of
$150 ($400 (job) - $250). The excess $650 ($800 advanced - $150 eligible for) of the Credit had
to be paid back when he or she filed his or her Tax Year 2009 return.

7. Single pensioner with wages and without Social Security
Pensioners in this category would be advanced
more Making Work Pay Credit than they are         Filing Status                Not equal to 2

eligible for. Take, for example, a single         Wages                        Greater than 0
pensioner who receives a pension from April       Gross Social Security          Equal to   0
through December 2009 and has one job for
                                                  Taxable Social Security        Equal to   0
that time period. Up to $400 would have been
advanced through the pension and up to $400       Taxable Social Security - CP   Equal to   0
would have been advanced through the job.
This taxpayer will have received $800. He or she qualifies for $400. The excess $400 had to be
paid back when he or she filed his or her Tax Year 2009 return.


                                                                                             Page 32
                           Overall the Making Work Pay Credit
                      Was Implemented As Intended by the Congress,
                         but Resulted in Many Taxpayers Owing
                               Taxes With Their Returns


8. Single pensioner with Social Security and without wages
Single pensioners with Social Security can be
advanced more of the Credit than they are           Filing Status                Not equal to  2

eligible for. Pensions do not qualify for the       Wages                          Equal to    0
Making Work Pay Credit. Take, for example,          Gross Social Security        Greater than 0 or
a single pensioner who has one job from April
                                                    Taxable Social Security      Greater than 0 or
through December 2009 and receives Social
Security during the same time period. Up to         Taxable Social Security - CP Greater than  0
$400 would have been advanced through the
pension and a $250 economic recovery check would have been received. Since the pension does
not qualify for the Credit, the entire $400 would had to have been paid back.

9. Single pensioner without wages or Social Security
Single pensioners without wages or Social          Filing Status                  Not equal to      2
Security can be negatively affected by the
                                                   Wages                            Equal to        0
Making Work Pay Credit by being advanced
the Credit when they do not qualify for it. For    Gross Social Security            Equal to        0
example, a single pensioner would have been        Taxable Social Security          Equal to        0
advanced up to $400. The entire $400 would
                                                   Taxable Social Security - CP     Equal to        0
had to have been paid back.

10. Joint pensioner with wages and Social Security
Joint pensioners with wages and Social
Security can be negatively affected by the           Filing Status                  Equal to    2

Making Work Pay Credit because they can be           Wages                        Greater than  0
advanced more of the Credit than they are            Gross Social Security        Greater than 0 or
eligible for. Pensions do not qualify for the
                                                     Taxable Social Security      Greater than 0 or
Credit. Take, for example, a jointly filing
couple that receives a pension from April            Taxable Social Security - CP Greater than  0
through December 2009, holds one job for that
time period, and receives Social Security for that time period. Up to $600 would have been
advanced through the pension, up to $600 would have been advanced through the job, and a
$250 economic recovery payment would have been received. This couple will have received
$1,450. The taxpayers qualify for the Making Work Pay Credit in the amount of $550 ($800
(job) - $250). The excess $650 ($1,200 advanced - $550 eligible for) would have to be paid back
when they filed their Tax Year 2009 return.




                                                                                                 Page 33
                           Overall the Making Work Pay Credit
                      Was Implemented As Intended by the Congress,
                         but Resulted in Many Taxpayers Owing
                               Taxes With Their Returns


11. Joint pensioner with wages and without Social Security
Joint pensioners with wages can be negatively
affected by the Making Work Pay Credit           Filing Status                Equal to   2
because they can be advanced more of the         Wages                      Greater than 0
Credit than they are eligible for. Take, for     Gross Social Security        Equal to   0
example, a jointly filing couple that receives a
                                                 Taxable Social Security      Equal to   0
pension from April through December 2009
and they have one job for that time period. Up Taxable Social Security - CP   Equal to   0
to $600 would have been advanced through the
pension and up to $600 would have been advanced through the job. These taxpayers will have
received $1,200. They qualify for $800. The excess $400 would had to have been paid back
when they filed their Tax Year 2009 return.

12. Joint pensioner with Social Security and without wages
Joint pensioners with Social Security can also
be negatively affected by the Making Work          Filing Status                  Equal to    2

Pay Credit by being advanced more of the           Wages                          Equal to    0
Credit than they are eligible for. Take, for       Gross Social Security        Greater than 0 or
example, a jointly filing couple that has one
                                                   Taxable Social Security      Greater than 0 or
job from April through December 2009 and
receives Social Security during the same time      Taxable Social Security - CP Greater than  0
period. Up to $600 would have been
advanced through the pension and a $250 economic recovery check would have been received.
Since the pension does not qualify for the Credit, the entire $600 would had to have been paid
back.

13. Joint pensioner without wages or Social Security
Joint pensioners without wages or Social
Security can be negatively affected by the         Filing Status                  Equal to      2
Making Work Pay Credit by being advanced           Wages                          Equal to      0
the Credit when they do not qualify for it.        Gross Social Security          Equal to      0
Pensions do not qualify for the Credit. As a
                                                   Taxable Social Security        Equal to      0
result, a jointly filing couple with one pension
would have been advanced up to $600, and the       Taxable Social Security - CP   Equal to      0
entire $600 would had to have been paid back.




                                                                                             Page 34
                                          Overall the Making Work Pay Credit
                                     Was Implemented As Intended by the Congress,
                                        but Resulted in Many Taxpayers Owing
                                              Taxes With Their Returns


                                                                                                                       Appendix VI

                                            Taxpayer Questionnaire
                      Questionnaire Cover Letter              OMB NO. 1505-0217 Expires 04/30/2012

                                                                         Person to Contact:
                                                                         Telephone Number (Not Toll Free):
                                                                         Additional Contact
                                                                         Telephone Number (Not Toll Free):
                                                                                   Control Number: 1

Dear Taxpayer,

The Department of the Treasury is conducting an independent review of the Internal Revenue Service’s (IRS) efforts to inform taxpayers of the
Making Work Pay Credit (MWPC). The Treasury Inspector General for Tax Administration (TIGTA), which is part of the Department of the Treasury
but independent of the IRS, is charged with conducting these independent reviews of the IRS. Enclosed is a questionnaire containing a question(s)
that will indicate your awareness of the Making Work Pay Credit and aid us in determining the effectiveness of IRS’ communication efforts.

This is not a review or audit of your tax return. Please complete the enclosed questionnaire and return it to us in the post-paid envelope within
three to five days of receipt. The time required to complete this questionnaire should not be more than 5 minutes. Your response is voluntary and
will remain completely confidential. There are no penalties for not replying. We are prohibited by law from providing information concerning your tax
accounts to anyone without your permission. Alternatively, you can contact our office by telephone at your convenience; however, we do not have a
toll-free number. If you choose to call us we will immediately call you back to reduce any toll charges.

                                                                 Making Work Pay Credit

On February 17, 2009, President Obama signed the American Recovery and Reinvestment Act of 2009 which contains many economic stimulus
provisions, one of which is the Making Work Pay Credit (MWPC). The MWPC gives single filers up to $400 and joint filers up to $800. Dependents,
pension recipients, and certain other individuals do not qualify for the MWPC. The IRS is advancing the credit to workers in their paychecks through
reduced withholding during 2009 and again in 2010.

We have identified situations in which individuals may be advanced more of the MWPC in their paychecks than they are eligible for. This could result
 in a reduced refund, owing taxes instead of receiving a refund, or owing more taxes than expected on your 2009 and 2010 tax return. Our concern is
that millions of taxpayers fall into one of these situations but are unaware due to a lack of effective communication by the IRS. These situations
include but are not limited to:

- Working dependents                               - Joint filing, multiple income households          - Pension recipients

- Social Security recipients who work              - Single filers with multiple jobs

To help insure our independent review of the IRS, please contact only the Treasury Inspector General for Tax Administration. Please do not
forward this letter to the IRS. If you have any questions, please call the individuals shown at the top of this letter. You can also access our
website at www.treas.gov/tigta/ for more information about our agency. Thank you for your cooperation.

Sincerely,




                                                                                                       Enclosures:

Michael R. Phillips                                                                                    Questionnaire

Deputy Inspector General for Audit                                                                     Post-Paid Envelope




                                                                                                                                  Page 35
                                    Overall the Making Work Pay Credit
                               Was Implemented As Intended by the Congress,
                                  but Resulted in Many Taxpayers Owing
                                        Taxes With Their Returns


Deputy Inspector General for Audit
_____________________________________________________________________________________________________________


                                           Privacy Act and Paperwork Reduction Act Notice

The Budget and Accounting Procedures Act of 1950 authorizes the Department of the Treasury to request this information for the
purposes stated in the letter. You are not required to provide the information requested on a form that is subject to the Paperwork
Reduction Act unless the form displays a valid Office of Management and Budget control number. The estimated average time to comply
with this letter is 5 minutes. If you have any comments concerning the accuracy of this time estimate or suggestions for making this letter
simpler, please write to either the:

Treasury Inspector General for Tax Administration
Office of Audit
         th
1125 15 Street, NW Room 700A
Washington, D.C. 20005

or

Office of Management and Budget
Paperwork Reduction Project (1505-0217)
Washington, D.C. 20503

                                    Do not send a reply to this letter to either of these addresses.




                                                                                                                             Page 36
                                     Overall the Making Work Pay Credit
                                Was Implemented As Intended by the Congress,
                                   but Resulted in Many Taxpayers Owing
                                         Taxes With Their Returns




                                                 Questionnaire - Making Work Pay Credit



                                                  OMB NO. 1505-0217 Expires 04/30/2012

                                                              Control Number: 1



Instructions: For each question, please check your answer and go to the next question as indicated. If you have additional information
you would like to share with us, please include it in the space provided at the end of the questionnaire, or attach a separate sheet. After
completion, please return the questionnaire using the enclosed post-paid envelope; alternatively you can provide your answers by phone
using the contact numbers on the cover letter, or if your prefer us to contact you by telephone please provide a contact number and a
best time to call in the “Additional Information” space provided below.

     1.   Prior to receiving this letter, were you (and/or your spouse if filing jointly) familiar with the Making Work Pay Credit and its
          potential for causing insufficient income tax to be withheld from your pay check and/or pension?

                       Yes (Continue to next question)
                       No (Stop here and return the questionnaire in the post-paid envelope)

     2.   Are you (and/or your spouse if filing jointly) aware of what to do to avoid being negatively affected by the
          Making Work Pay Credit?

                       Yes                            No

     3.   Did you (and/or your spouse if filing jointly) adjust your withholding amount during 2009?

                       Yes                            No

     4.   If you (and/or your spouse if filing jointly) had more than one job in 2009, did you work them concurrently?

                       Yes                            No

     5.   How were you informed about the Making Work Pay Credit? Check all that apply.

                       www.irs.gov                    www.youtube.com                    www.recovery.gov
                       Newspaper                      Television                         Radio
                       Word of Mouth

                       Other (please briefly describe) ___________________________________

Additional Information. Please include any additional information from the questions above, as well as anything else you feel is pertinent
to our inquiry. An additional page can be attached if needed.

________________________________________________________________________________________________


________________________________________________________________________________________________


________________________________________________________________________________________________

    This concludes our questionnaire. Please return this page in the post-paid envelope and mail it within three to five days of receipt.
                                                        Thank you for your time.




                                                                                                                                 Page 37
                             Overall the Making Work Pay Credit
                        Was Implemented As Intended by the Congress,
                           but Resulted in Many Taxpayers Owing
                                 Taxes With Their Returns


                                                                                          Appendix VII

               Assumptions Made in Reviewing Cases

To determine if taxpayers were negatively affected by the reduced withholding associated with
the Making Work Pay Credit, we used computer programs to identify taxpayers that were
underwithheld and owed tax on their Tax Year 2009 U.S. Individual Income Tax Return
(Form 1040). We filtered those results into the different categories of taxpayers who may be
negatively affected by the Making Work Pay Credit. From this population we analyzed
465 returns filed by taxpayers in our taxpayer segments identified as at risk for being negatively
affected by the Credit (31 returns from each cycle1 were randomly sampled for a total of
465 returns).
In our analysis of the 465 tax returns, the following assumptions were applied:
    1) If a taxpayer’s return had multiple Wage and Tax Statements (Form W-2), it was
       assumed that the jobs were held concurrently unless there was evidence otherwise.
    2) If Form W-2 information was not available, it was assumed that the wages came from
       one Form W-2 rather than multiple Forms W-2.
    3) If Distributions From Pensions, Annuities, Retirement or Profit-Sharing Plans, IRAs,
       Insurance Contracts, etc. (Form 1099-R) information was not available, it was assumed
       that the taxable pension amount was from a single source rather than multiple
       Forms 1099-R.
    4) In the case of pension payments, it was assumed that the pension administrator did not
       use the optional (additional) table provided in Additional Withholding for Pensions for
       2009 (Notice 1036-P) to calculate pension withholding and the taxpayer was advanced
       the Making Work Pay Credit erroneously.
    5) It was assumed that taxpayers did not adjust their Employee’s Withholding Allowance
       Certificate (Form W-4).
To determine if the reduced withholding associated with the Making Work Pay Penalty could
have caused taxpayers to owe the Estimated Tax Penalty or owe more Estimated Tax Penalty, we
used computer programming to identify individuals from those taxpayers segments we
determined would be likely to be negatively affected by the Making Work Pay Credit who were
assessed Estimated Tax Penalties on their Tax Year 2009 tax returns. We then selected a sample
of 116 returns and analyzed the taxpayers’ accounts to determine if the Making Work Pay Credit

1
 A cycle is 1 week’s processing at a Campus or at Martinsburg or Tennessee Computing Centers. There are
52 cycles in a year.
                                                                                                     Page 38
                          Overall the Making Work Pay Credit
                     Was Implemented As Intended by the Congress,
                        but Resulted in Many Taxpayers Owing
                              Taxes With Their Returns


could have caused the taxpayers to owe the Estimated Tax Penalty or owe more Estimated Tax
Penalty. We further analyzed this sample of Estimated Tax Penalty taxpayers to identify those
that had not owed the Estimated Tax Penalty in the prior 3 years.
In our analysis of the 116 tax returns and related account information, the following assumptions
were applied:
   1) If a taxpayer’s return had multiple Forms W-2, it was assumed that the jobs were held
      concurrently unless there was evidence contradicting the assumption.
   2) If Form W-2 information was not available, it was assumed that the wages came from one
      Form W-2 rather than multiple Forms W-2.
   3) If Form 1099-R information was not available, it was assumed that the taxable pension
      amount was from a single source rather than multiple Forms 1099-R.
   4) In the case of pension payments, it was assumed that the pension administrator did not use
      the optional (additional) table provided in Notice 1036-P to calculate pension withholding
      and the taxpayer was advanced the Making Work Pay Credit erroneously.
   5) It was assumed that taxpayers did not adjust their Form W-4.
   6) If the taxpayer still owed over $1,000 after the analysis, it was assumed that the taxpayer
      owed additional Estimated Tax Penalty.
   7) If the taxpayer owed less than $1,000 after the analysis, it was assumed that the taxpayer
      owed the Estimated Tax Penalty as a result of the Making Work Pay Credit.




                                                                                          Page 39
           Overall the Making Work Pay Credit
      Was Implemented As Intended by the Congress,
         but Resulted in Many Taxpayers Owing
               Taxes With Their Returns


                                                Appendix VIII

Management’s Response to the Draft Report




                                                       Page 40
     Overall the Making Work Pay Credit
Was Implemented As Intended by the Congress,
   but Resulted in Many Taxpayers Owing
         Taxes With Their Returns




                                               Page 41
     Overall the Making Work Pay Credit
Was Implemented As Intended by the Congress,
   but Resulted in Many Taxpayers Owing
         Taxes With Their Returns




                                               Page 42
